1

No.

fi
g %?

I
IN THE

2£

Supreme Court. U.S.
FILED

SUPREME COURT OF THE UNITED STATE?

jUN 2 8 2021
OFFICE OF THE CLERK

VINCENZA PRESTI-PETITIONER

vs.

ALEJANDRO MAYORKAS, SECRETARY of the
U.S. DEPARTMENT OF HOMELAND SECURITY, et al
RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO THE U.S. COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Vincenza Presti
1917 Stormy Ct. Apt# 202
Schaumburg. IL 60193
Tel# (630)441-2156
Email: bella enza@vahoo.com

RECEIVED
JUL - 6 2021

smatSBSjBX

i

QUESTION(S) PRESENTED
The following issues are presented for review to the Supreme Court:
QUESTIONS PRESENTED:
1. Whether the Judicial system can be biased towards federal employee petitioners
by denying them due process and a hearing?

2.

Whether Title VII bans retaliation in federal employment for employees with
previous EEO activity, in its various forms, such as: bullying from Management in
the federal workplace, belittling, holding back from professional development and
opportunities, passing on hiring list, demoting, poor performance appraisals,
damage to reputation, mental cruelty, and placing the employee on a furlough

list.

2

LIST OF PARTIES
[ X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:

RELATED CASES

3

TABLE OF CONTENTS

1

OPINIONS BELOW.
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A U.S. Court of Appeals for the Seventh Circuit, Final Judgement &
Order, dated November 19, 2020;
APPENDIX B U.S. District Court, Northern District of Illinois, Judgement in Civil case
with Memorandum Order & Opinion, dated February 20, 2020;
APPENDIX C U.S. Court of Appeals for the Seventh Circuit, Order for Petition for
Rehearing, dated January 28, 2021
APPENDIX D

Petitioner’s Appeal at the Seventh Circuit

4

TABLE OF AUTHORITIES

CASES

PAGE NUMBER

Sublet vs Wiley 63 F. 3rd 731. U.S. Court of Appeals, 7th Cir. 2006
Harris v. Forklift Systems, Inc. 510 US 17, Supreme Court, Nov. 9, 1993, case no. 92-1168
Easley v. Reuss, 532 F. 3d 592 (7th Cir. 2008)

STATUTES AND RULES
NO FEAR ACT
Title VII of 1964

OTHER

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is
[ ] reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
The opinion of the United States district court appears at Appendix B the petition and is
[ ] reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ x] is unpublished.
[ ] For cases from state courts:

The opinion of the highest state court to review the merits appears at
Appendix to the petition and is
[ ] reported at; or
[ ] has been designated for publication but is not yet reported; or
[ ] is unpublished.

6

JURISDICTION

[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was November
19. 2020.

[ ] No petition for rehearing was timely filed in my case.
[ X] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date: January 28. 2021. and a copy of the order denying rehearing appears at
Appendix C.
[ ] No petition for rehearing was timely filed in my case.

A timely petition for rehearing was denied by the United States Court of Appeals on the
following date: January 28. 2021. and a copy of the order denying rehearing appears at
Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No. A.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was A copy of that decision
appears at Appendix.

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing appears at Appendix.
An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No. A. The jurisdiction of this Court is invoked
under 28 U. S. C. § 1257(a).

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Title VII. 42 U.S.C. § 2000e
Title VII of Civil Acts of 1964
NO FEAR ACT

8

STATEMENT OF THE CASE
BACKGROUND
The nature of the case is employment discrimination in which the Appellant is a member
of a protected group because of her previous EEO activity (HS-08-CIS-04320). The District
Court’s federal question jurisdiction was based on an alleged discrimination in the workplace per
42 U.S. Code, Section 2000e, for prior EEO (Equal Employment Opportunity) protected activity,
as per Title VII of the Civil Rights Act of 1964.

Appellant Vincenza Presti is employed by the U.S. Homeland Security, U.S. Citizenship
& Immigration Services, Chicago Field Office, as an Immigration Services Officer II. Appellant
was hired on March 10, 2002.

In February 2008, Appellant Presti filed an EEO {Equal Employment Opportunity) complaint
in 2008, HS-08-CIS-004320. Appellant prevailed in the EEO case in August 2010 (Dkt *85, p.
109) and was reinstated to her previous position as an ISO II in a permanent status, on January
18, 2011.

In 2013 Appellant filed an informal EEO complaint HS-CIS-00447-2013 that was resolved at
the mediation stage (Dkt*. 74@6).

In June 2015 Appellant filed for promotional job as a Senior Officer III and was informed
she was not selected in August 2015 (Dkt* 85, p. 34). In September 2015 Presti filed an EEO
complaint (Dkt* 85, p. 34). Agency denied the EEO complaint (Dkt *85, p. 134).

*All dockets are those ofthe lower district court, Northern District ofIllinois.

9

Appellant kindly requests this Honorable Court to REVIEW and GRANT her Petition for
Rehearing for the reasons outlined below:

•

The Seventh Circuit Court has overlooked and misapprehended the main claim of
Appellant’s lawsuit which is Retaliation.

Presti notices that the Appeal Order (AO) of Novemberl9, 2020, gives more weight to
the claim of National Origin over the claim of Retaliation. On page 2, para. 5, the Appeal
Order states: “Presti then filed a new EEO complaint...based on her Italian descent. The EEO
found the charges unsupported. ” This is inaccurate. The Appeal Order ignores the retaliation
claim. The EEO complaint was not filed based on National Origin alone, and NO decision was
made on it by the EEOC, (dkt 85*, pp.35). The 2015 EEO was filed based on Reprisal per prior
EEO activity, and National Origin (Id), and so was the lawsuit at the lower court (Dkt* 1).

In addition, the panel of Judges have overlooked a very important material fact to the
case. Appellant prevailed in a previous EEO complaint case # HS-08-CIS-004320 in August
2010 (dkt 85*, p. 109), placing her in a protected status. For this reason, the Agency
discriminated against her again by passing her up for a promotion in 2015 (dkt 85*, p. 34).

•

The Lower Court has overlooked the fact that NO HEARING was held.

Presti also brings to the attention of this Honorable Court that no hearing was held at any
level: not at the EEO stage, nor at the lower district court, nor at the 7th Circuit Court of Appeal.
Presti was never heard in a Court of Law, and was not heard by an Administrative Judge during

10

the process of her EEO, before filing a lawsuit with the lower district court. No hearing has taken
place at any level of the court. Neither was Appellant allowed to be represented by counsel at the
lower court. The denial of Plaintiff s request for legal representation (Dkt* 5, Dkt* 10, Dkt* 11)
and the denial to a hearing (Dkt* 101, Dkt* 102) has caused great harm to Plaintiffs case.
Pursuant to F.R.A.P. 34 (a)(1), Presti sought in the Record of Appeal (ROP) to present an
oral argument if_the panel of Judges found that the facts and legal arguments were not
adequately presented in the briefs and the record, and the decisional process would have been
significantly aided by such oral argument”. No oral argument was presented by Appellant to
This Court to present the material facts surrounding this case.
The core requirements of “due process’ are notice and a hearing before an impartial
tribunal. Due process may also require an opportunity for confrontation and cross-examination,
and for discovery; that a decision be made based on the record, and that a party be allowed to be
represented by counsel. This right is a “basic aspect of the duty of government to follow a fair
process of decision making. The purpose of this requirement is to ensure fair play to the
individual. Thus, the notice of hearing and the opportunity to be heard must be granted
”Easley v. Reuss, 532 F.3d 592 (7th Cir. 2008). In the article -Florida Law Review (July 2008,
Vol. 60, No. 3), Rosalie Berger Levinson writes: “The touchstone ofdue process is protection of
the individual against arbitrary action ofgovernment”.
•

In addition, the Seventh Circuit has overlooked to respond to the issue regarding
causation in time (issue #2 of the Record on Appeal).

•

Was the ‘causation in time ’ as interpreted by the Judge, proper and correct? (Dkt*. 101
p.13, line 7, Memorandum Order and Opinion, dated Feb. 20, 2020);

11

•

And, the panel did not review the appeal in the most favorable light to her (Issue #3
of ROA):

• Did the Judge review all ofthe record and all ofthe inferences drawn therefrom in the
light mostfavorable to the party opposing the motionl

The AO (Appeal Order) has ignored Presti’s claim of “retaliation because of previous
EEO activity and whistleblowing (ROA, p. 25) which was also listed in her Complaint filed
with the lower court (Dkt* 49, p.4, para. 12 (h)). Appellee failed to respond to this claim in its
Motion for Summary Judgement (Dkt* 74, Dkt 75). The District Judge addressed the issue in her
Memorandum Opinion and Order (Dkt* 101). Whistleblowing was also another factor why the
Defendant held back Presti from promotion and then demoted her in 2018.

•

The Seventh Circuit has overlooked appellant’s injury suffered by the Defendant’s
continuous retaliatory actions over the course of time, causing a hostile and abusive
work environment.

Facts overlooked or misapprehended by the Seventh Circuit:

•

The Seventh Circuit Court of Appeals has misapprehended the very claims of the
lawsuit, which is based on claims of Retaliation and National Origin, and not this
last one alone.

The 7th Cir. AO, decided on November 19, 2020, states on page 1: “Presti... believes she was
demoted and given negative feedback on her job performance based on her Italian descent and
in retaliation for complaints she hadfiled with the Equal Employment Opportunity Commission
(EEOC).
12

Presti notes that the demotion from supervisory position was not the primary cause for
filing of this lawsuit (Dkt* 1). Presti’s initial complaint filed with the Court is an employment
discrimination case per Title VII of the Civil Rights Acts of 1964, on the claim of retaliation and
national origin. (Dkt* 1) Presti later amended her complaint after the demotion occurred. (Dkt
49*). Presti notes that all retaliation by the Defendant is because of the 2008 EEO case which
was decided in her favor, with a finding of discrimination. (Dkt 85*, p.109). Since then, Presti
had been “marked” by the Agency as “not eligible” for promotion.

On page 2, paragraph 2, the AO states “In her first complaint, in 2008, she stated she had
been passed over for a role because ofher Italian heritage. This is inaccurate. No claim of
National Origin was made in the 2008 EEO. (Dkt 85* P. 109). The claim was solely for
retaliation for non-selection. (Id.) The current lawsuit is based on the 2015 EEO filed based on
Retaliation and National Origin for non-selection of the Immigration Services Officer III
position. (Dkt* 1).

On page 2, para. 2, the AO states “... she filed two complaints with the EEOC about
discrimination on the job”. This is inaccurate. I have filed a total of three (3) complaints with the
EEOC: 1) in 2008, case # HS-08-CIS-0004320, which was decided in Presti’s favor, with a
finding of discrimination (Dkt *85, p.l 18); 2) in 2013-case #HS-CIS-00447-2013, which was
solved through mediation (Dkt* 74@6); 3) 2015 EEO-case # HS-CIS-00105-2016, then filed
with the lower court on the basis of Retaliation and National Origin (Dktl *).

The Appeal Order (AO) dated November 19, 2020, continues to state on page 2, “The
EEOC made a finding ofdiscrimination, and USCIS offered her the job sought”. This is not
accurate. USCIS did not offer Presti the position. The Judge ordered the agency to make Presti
13

whole and reinstate her back to her prior position before the discrimination had occurred (Dkt 85,
p. 1X8).
On page 2, para. 5, the Panel stated “Presti then filed a new EEOC complaint stating she
received negative feedback and was passed over for promotion based on her Italian descent. The
EEOC found the charges unsupported”. This statement is inaccurate. The 2015 EEO complaint
was filed on the basis of Retaliation and National Origin (Dkt* 1). The panel of Judges have
overlooked the “main artery” to the heart of this lawsuit, which is retaliation based on her
previous EEO activity. (Id.) The Appeal Order refers to Presti’s annual performance as
“feedback?', or “negative feedback?' (Appeal Order p.2, para.5) Presti notes that it was more than
just feedback. It was an annual performance in writing that stays on record, and required to be
submitted with job applications for promotion. A negative narrative in the annual performance
equates to the inability of being promoted to the next level.

Furthermore, the panel stated on page 2, para. 4 “Around this time" referring to 2015
when the PPA was issued. The Panel’s use of adverbs of time at the start of each paragraph on
page 2, such as: “Around this time", “then filed', and “In the meantime", as used, are too vague
and obscure the correct unfolding of events. There is confusion with the chronological order of
these events that is critical in understanding the material facts of this lawsuit. Thus it is important
to understand the timeline in which they occurred. Evidence of the record will show:

•

On September 8. 2015. discrimination occurred when Presti was notified she was not
selected for the Senior Immigration Officer level III position (Dkt* 85. p.419 @22);

•

On October 16. 2015. Presti contacted the EEO office to file a complaint for retaliation
for the non-selection. (Dkt* 85, p.420 @15);
14

•

On October 29. 2015, Presti was served her the PPA-Performance appraisal (Dkt 85*, p.
419 @22), which was discriminatory.

The record shows that:

•

On January 4. 2018. Petitioner withdrew her EEO complaint from before the Commission
(EEOC) (Dkt* 85, p.53), and the Agency Counsel received notification of the same (Id);

•

On March 8. 2018. Presti filed civil case- Complaint- before the District Court of the
Northern District of Illinois, (Dkt* 1).

•

On April 1. 2018. Presti was promoted (Dkt* 85-1, p. 193 @ 2), a few days after the
filing of her lawsuit before the Federal Court (dkt *1).

On January 4, 2018, the Agency was made aware of Presti’s decision to sue, via email
notification and therefore attempted to give the appearance ofgood will by promoting her to the
supervisory position in the hope she would withdraw her case from the Lower Court of the
NDIL. Presti was demoted less than 6 months later, on September 21, 2018, (Dkt *74, Def. Rule
56.1 Statement of Facts, Dkt.74-2, p. 125-141), once the FOD Medina realized Presti would not
withdraw the federal lawsuit. This was clearly a retaliatory action inflicted by the Agency upon
the Appellant.

The AO states on page 5@3: “she lacked the evidence from which a jury could infer that
she was demoted in 2018 in retaliation for her EEOC complaints”. In her ROA Presti instead
affirms that the demotion was a clear retaliatory act and bullying for having filed a lawsuit at the
Federal Court of Northern District of Illinois (ROA, p. 13@12-17). The record shows that
Woodson worked on the so called “Presti project” (dkt *85-1, p. 292 @1,4) for six weeks before

15

demoting her. (Id.) Reprisal and bullying from management has become a major issue at the
Chicago Field Office (Dkt.* 85-1, p.231, PI. Ex. C6).

On page 3, paragraph 2, the panel stated: “After she assumed the supervisory position,
Presti’sperformance declined.” The panel continues in paragraph 3, “Zrc September, USCIS
demoted Presti for poor performance”.

Petitioner finds it unjust and unfair for the District Judge to have considered only this
ONE piece of evidence, Woodson’s affidavit, by giving it the heaviest weight of preponderance
of the evidence, tipping the scale entirely in the favor of the Defendant to justify its claim of
Plaintiffs demotion (Dkt* 74-2, pp. 13 5-142, Def. Rule 56.1 Statement ofFacts, Ex. 27).

Since Presti was performing very well and was achieving excellence in her job
performance in the previous years leading up to her promotion (4.5 out of 5 possible points) as
shown in her multiple PPA’s (Dkt* 85, p. 201, 2018, 230), and had developed the skills
necessary to perform the job functions, except without supervisory experience, it is impossible
that Presti’s performance dropped drastically within 90 days. (Dkt* 85-1, p. 215). Additionally,
Presti has demonstrated her skills to This Honorable Court, and to the lower court of the
Northern District of Illinois, by submitting her own written briefs (dkt *86), and by proceeding
in the lower court and the Court of Appeals without legal representation. Presti is definitely not a
“zero”.

It’s worthy to note that almost all the core competencies and goals reflected in the SISO
(Supervisory Immigration Services Officer) PPA such as: Communication, Customer Service,
Representing the Agency, Teamwork and Cooperation, and Technical Proficiency, are the same

16

for an Officer in a non-supervisory position (except for Assigning...work, and Leadership). The
record shows Appellant’s previous PPA’s ali show her having succeeded and excelled in her
performance on the job. 2015 was Presti’s strongest year in her career.

For example, the 2017 performance appraisal (Dkt*. 85, p. 201) shows plaintiff achieved
4.6 out of a possible 5, on all core competencies, putting her in the “exceeded expectations ”
bracket for performance appraisals. The 2016 PPA Plaintiff scored 4.4 out of a possible 5 for the
same competencies, rating her again overall as having “exceeded expectations” (Dkt*. 85, p.
208). The 2013 PPA Plaintiff scored 4.4 out of 5, and again scored an overall rating of
“exceeded expectations” (Dkt*. 85,p. 230). In other words, Plaintiffhad 12 years of experience
when she was selected for the supervisory position, and had more than sufficient experience in
performing all the tasks related to her job functions. Yet, Branch Chief Woodson depicted Presti
as a “totalfailure” by rating her “zero” on all grounds which was definitely an act of bullyism
and a retaliatory act against the Appellant.

Petitioner was under the supervision of Ms. Yolanda Vera from April 1, through June 8,
2018 (Dkt*. 85-1, p. 196), prior to being under the supervision of Ms. Woodson. Ms. Vera
submitted a written progress review to the FOD (Field Office Director) Martha Medina on June
19, 2018 (Dkt.* 85-1, p. 199-200) that presented no derogatory information regarding Presti’s
performance (Dkt* 85-1, p. 196). To the contrary, her notes showed Plaintiff was progressing
well as a new supervisor (Dkt* 85-1, p. 196).

The agency cannot be capricious by abusing its power from its position to belittle, harass,
and bully its employees. See Harris v. Forklift Systems, INC. 510 US 17, Supreme Court,
November 9, 1993. Presti was belittled and insulted by Woodson who rating her a “zero” in the
17

2018 Supervisory Performance Appraisal, following her demotion. Defendant’s actions of
demoting Presti were demeaning towards Appellant, causing her embarrassment in front of her
colleagues. The Defendant has engaged in the same retaliatory act as in the 2008 EEO (dkt 85,
p. 118) where the interview panel rated Presti “zero” for the job interview she was passed on,
2008 EEO case in which Presti prevailed (dkt* 85, p. 118).

Petitioner argues that the negative feedback in her annual performance appraisal in 2015,
along with her demotion from her supervisory position in 2018, and a performance appraisal of
“zero”, did in fact constitute an adverse employment action. Presti’s name and reputation was
injured in the workplace by Defendant’s retaliatory actions.

“When the workplace is permeated with "discriminatory intimidation, ridicule, and
insult," that is "sufficiently severe or pervasive to alter the conditions ofthe victim's employment
and create an abusive working environment, Title VII is violated. A discriminatorily abusive
work environment, even one that does not seriously affect employees' psychological well-being,
can and often will detract from employees'job performance, discourage employees from
remaining on the job, or keep them from advancing in their careers”. Harris v. Forklift
Systems, Inc., 510 US 17 - Supreme Court 1993

Petitioner has been strongly harassed and mentally abused by the agency since the
issuance of the decision of the civil lawsuit at the lower court in February 2020, to the point
where the Petitioner had to file a new EEO (HS-CIS-02064-2020). The Agency has bullied
the Petitioner in various forms and manners, such as: poor performance appraisals, placed on the
furlough list, delayed decisions for covid flexibility, disregarded her request for time away from
the office, and much more.
18

REASONS FOR GRANTING THE PETITION
Bullying has been a very serious issue within the U.S. Department of Homeland
Security, U.S. Citizenship & Immigration Services, especially in a large office like
Chicago. The Supreme Court should protect all federal employees by encouraging
employees to come forth and denounce such actions, as per the NO FEAR ACT.
This Petition for Writ of Certoriari should be granted to give hope to all federal
employees across the nation, to let them know they can speak up and not be afraid, and
also to let the government agencies know they cannot retaliate against employees that
speak up and speak out against what they are doing wrong.

19

CONCLUSION

The Petitioner hereby kindly ask This Highly Honorable Supreme Court to make justice
to this Federal employee of the United States Government and uplift the NO FEAR ACT, Title
VII of the Civil Rights Act of 1964, and the laws of Equal Employment Opportunity, and most
of all to ensure justice in the Land, as Our Lord himself stands for justice and righteousness.

For the above stated reasons, the Petitioner kindly asks this Very Honorable Supreme
Court to OVERTURN the decision of the lower court and asks that this petition for a writ
of certiorari should be granted.

Res|

Vincenza Presti, Petitioner
Date: June 28, 2021

20

